NO: 20-5157

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

DENARD STOKELING,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

MICHAEL CARUSO
Federal Public Defender
Brenda G. Bryn
Assistant Federal Public Defender
Counsel of Record
One East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436
Counsel for Petitioner

QUESTIONS PRESENTED
1. Where a defendant pled guilty to a violation of 18 U.S.C. § 922(g) prior to Rehaif v.
United States, 139 S.Ct. 2191 (2029), and it is undisputed that the plea was neither knowing nor
voluntary because he was not told that knowledge-of-status is a crucial element of the offense, is
this plea entered in clear violation of the Due Process Clause reversible error per se, or must a
defendant prove that he would not have pled had he been advised of the knowledge-of-status
element?
2. Does a state robbery offense that may be committed by putting the victim “in fear” –
which is judged by an objective “reasonable person” standard, and does not require proof that
the offender subjectively intended to put the victim “in fear” – “have as an element the use,
attempted use, or threatened use of physical force against the person of another” as is necessary
to qualify as a “violent felony” under the Armed Career Criminal Act?

i

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW .................................................................................... i
TABLE OF AUTHORITIES .......................................................................................................... ii
REPLY ARGUMENT .....................................................................................................................1
This case is a ready and suitable vehicle to resolve whether an unknowing
and involuntary plea after Rehaif is automatically reversible as a structural
error; if the Court chooses to grant certiorari to resolve that issue in another
case, it should hold this case pending final resolution of that issue.
CONCLUSION ................................................................................................................................5

ii

REPLY ARGUMENT
This case is a ready and suitable vehicle to resolve whether an unknowing
and involuntary plea after Rehaif is automatically reversible as a structural
error; if the Court chooses to grant certiorari to resolve that issue in another
case, it should hold this case pending final resolution of that issue.
The government has rightly acknowledged that the courts of appeals are intractably
divided on whether an involuntary guilty plea is a structural error, and whether a structural error
is automatically reversible under the plain error standard. U.S. Br. at 12. It asks that the circuit
conflict on that issue be resolved in United States v. Gary, pet. for cert. filed Oct. 5, 2020 (No.
20-444), where it has sought to reverse the Fourth Circuit’s holding that because an unknowing
and involuntary guilty plea amounts to structural error, it satisfies both the third and fourth
prongs of the plain error standard in United States v. Olano, 507 U.S. l725 (1990).
The government asks the Court to hold Petitioner’s case pending resolution of the circuit
conflict in Gary, “because the Court’s disposition in Gary could potentially affect the proper
resolution of this case.” U.S. Br. at 16. While Petitioner agrees that his case should be held
pending Gary if the Court chooses to resolve the circuit conflict in that case, he disagrees with
the government’s suggestion that his own case is an “unsuitable vehicle” to resolve the circuit
conflict because of “a potential need to address a threshold dispute as to the appropriate standard
of review.” U.S. Br. at 15.
What the government means in referring obliquely to this “threshold dispute” here, is that
the Eleventh Circuit arguably erred in holding that Petitioner’s involuntary guilty plea was
reviewable for plain error only. In United States v. Louissant, 558 F. App’x 893 (11th Cir. Mar.
7, 2014) (discussed in the Petition at 10), the same judge denied counsel an opportunity to fully
state objections after imposition of sentence, and because of that, the Eleventh Circuit held that
1

its review would be de novo rather than for plain error. Id. at 896 (where a court fails to elicit
objections other than those already stated, the deferential standard usually applied to claims
raised for the first time on appeal “becomes de novo because such violation implies that the
defendant’s opportunity to raise objections was someone limited”). Here, as the government
acknowledges, U.S. Br. at 8, defense counsel expressly stated that she wished to “preserve” a
Rehaif objection at the conclusion of Petitioner’s sentencing. Although the district court cut
counsel off before she could fully articulate her objection, the court was clear (in the concluding
portion of the transcript the government does not mention) that it viewed the objection to be
preserved, stating: “[Counsel] wishes to add one case [Rehaif]

to her statement. Motion

granted.” Under such circumstances, and particularly in light of Louissant, appellate review of
Petitioner’s unknowing and involuntary plea claim should have been de novo rather than for
plain error.
Given Louissant and this record, the government has rightly conceded that although the
court below stated that plain error review applied, there is a “potential need to address a
threshold dispute as to the appropriate standard of review” here. That concession is significant
since the government has acknowledged in its Gary petition that under United States v.
Dominguez Benitez, 542 U.S. 74 (2004), “structural error warrants reversal ‘without regard to the
mistake’s effect on the proceeding’ [] in the context of ‘preserved error.’” Gary pet. at 15 (citing
Dominguez Benitez at 81; emphasis added by the government).

Given that acknowledgement,

as well as the Court’s reiteration in Weaver v. Massachusetts, 137 S.Ct. l899, 1905 (2017) that a
preserved objection to a structural error entitles a defendant on direct appeal “to ‘automatic
reversal’ regardless of the error’s actual ‘effect on the outcome,” id. at 1910 (citation omitted),

2

the “threshold question” here as to the proper standard of review does not undercut the
certworthiness of Petitioner’s case. It enhances it.
Notably, the government has agreed that Lavalais v. United States, pet. for cert. filed
Aug. 20, 2020 (No. 20-5489) would be an equally “suitable” a vehicle for certiorari as Gary, and
importantly “would allow the Court to grant certiorari now without waiting for the certioraristage briefing in Gary to conclude.” U.S. Brief, Lavalais, at 15-16. Here, as in Lavalais, the
certiorari-stage briefing been concluded, and a cert grant in this case would likewise allow the
Court to resolve the question dividing the circuits “without waiting for the certiorari-stage
briefing in Gary to conclude.” Moreover, the question presented for review in the instant
petition is not only framed analogously to Question 1 in Lavalais; it is framed broadly enough to
also comprise Question 2 in Lavalais, as well as the rephrased, consolidated questions suggested
by both the government and petitioner in Lavalois. Because of the broad framing of Question 1
for review here, Petitioner’s case would be as suitable a vehicle for certiorari as either Gary or
Lavalais to resolve “the overarching conflict about whether to conduct a case-specific prejudice
inquiry.” U.S. Br., Lavalais, at 17. And in fact, it could actually be a better vehicle for certiorari
because the lingering “threshold dispute as to the appropriate standard of review” will assure
definitive resolution of the important and recurring question of whether an involuntary plea
amounts to structural error.1
This Court has twice avoided resolving whether other challenged errors were “structural,”
after finding that the question ultimately made no difference to the resolution of the case since
the defendant could not meet prong 4 of Olano. See Johnson v. United States, 520 U.S. 461, 469
1

The government does not dispute that Petitioner specifically argued in his briefing to the
Eleventh Circuit that his involuntary plea was a structural error requiring reversal without proof
of prejudice, and therefore, the question of structural error is directly presented here. Petition at
10-11, 17.
3

(1997) (holding that “we need not decide that question because, even assuming that the failure to
submit materiality to the jury ‘affec[ted] substantial rights,’ it does not meet the final
requirement of Olano”); United States v. Cotton, 535 U.S. 625 (2002) (declining to resolve
whether the indictment’s failure to allege a fact that increased the statutory maximum was a
structural error, or whether such an error otherwise met the third prong of Olano, “because even
assuming respondent’s substantial rights were affected, the error did not seriously affect the
fairness integrity, or public reputation of judicial proceedings”).
In its petition for certiorari in Gary, the government has already previewed this type of
merits-stage argument. See Gary pet. at 19-21 (arguing that even if an involuntary plea were
deemed a structural error that meets “the prejudice component of the plain error test,” the Fourth
Circuit’s finding that a structural error necessarily meets the fourth prong of Olano cannot stand
because “the fourth plain-error requirement ‘is meant to be applied on a case-specific and factintensive basis;’” citing Puckett v. United States, 556 U.S. 129, 142 (2009)). Petitioner disputes
that Puckett’s fourth prong analysis could apply to any case involving structural error (since the
error in Puckett was not deemed structural, id. at 141-42), and specifically, to the type of Due
Process error that exists here which has always been deemed reversible per se under both this
Court’s and the Eleventh Circuit’s precedents. He urges the Court to reason, as the Fourth
Circuit has, that an unknowing and involuntary plea meets prong 4 of Olano for the same reasons
it is deemed a structural error that meets prong 3—namely, ensuring Due Process in accepting
guilty pleas is vital to the integrity of our system of justice. United States v. Gary, 954 F.3d
194, 207-09 (4th Cir. 2020).
If the Court were to adopt the contrary approach to prong 4 of Olano articulated by the
government in Gary, it might assume without deciding that an unknowing and involuntary plea is

4

a structural error that necessarily meets prong 3, and conclude (as it did in both Johnson and
Cotton) that there is no relief for such an error under prong 4 without a showing of case-specific
prejudice. But resolution of the circuit conflict in that matter would not definitively resolve
Petitioner’s case. Express resolution of the structural error question is crucial for Petitioner since
the existence of structural error is case-dispositive under de novo review, and as the government
has conceded, there is a “threshold dispute in this case as to the standard of review.”
Accordingly, the Court should grant certiorari in this case either independently or
together with Lavalais or Gary.

If the Court concludes upon full merits briefing that an

unknowing and involuntary plea does not meet prong 4 of Olano without a showing of casespecific prejudice, so long as the Court holds that an unknowing and involuntary plea after
Rehaif is indeed a structural error, it should remand to the Eleventh Circuit for reconsideration of
the appropriate standard of review in this case.
CONCLUSION
For the foregoing reasons, as well as those contained in the Petition for Writ of
Certiorari, the Court should grant certiorari in this case or hold this case pending resolution of
Lavalais, Gary, or another case in which it will resolve the current circuit conflict.
Respectfully submitted,
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
By:

s/Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender
Counsel for Petitioner

Fort Lauderdale, Florida
October 27, 2020

5

